USCA4 Appeal: 19-7275

Doc: 8-1

Filed: 06/11/2020

Pg: 1 of 1

FILED: June 11,2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7275
(4:18-cv-03234-JFA)

JAVAN FREDRICK MAYS, a/k/a Von Frederick Mayes
Petitioner - Appellant
v.

WARDEN SCOTT LEWIS
Respondent - Appellee

JUDGMENT
In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

USCA4 Appeal: 19-7275

Doc: 11

Filed: 07/28/2020

Pg: 1 of 1

FILED: July 28, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-7275
(4:18-cv-03234-JFA)

JAVAN FREDRICK MAYS, a/k/a Von Frederick Mayes
Petitioner - Appellant
v.

WARDEN SCOTT LEWIS
Respondent - Appellee

ORDER

The petition for rehearing en banc was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court denies the petition for
rehearing en banc.
For the Court
/s/ Patricia S. Connor, Clerk

4:18-cv-03234-JFA

Date Filed 08/15/19

Entry Number 36

Page 1 of 9

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF SOUTH CAROLINA
FLORENCE DIVISION

C/A No.: 4:18-03234-JFA

Javan Fredrick Mays,
Petitioner,

ORDER

vs.
Warden Scott Lewis,
Respondent.

I.

INTRODUCTION
Javan Fredrick Mays, (“Petitioner”), is currently incarcerated in the Perry Correctional

Institution pursuant to orders of commitment from the Clerk of Court for Spartanburg County.
Petitioner, proceeding pro se, filed the instant petition for a writ of habeas corpus pursuant to 28
U.S.C. § 2254. (ECF No. 1). On February 5, 2019, Warden Scott Lewis (“Respondent”) filed a
Motion for Summary Judgment and filed a return with a memorandum of law in support. (ECF
Nos. 14 & 15). On February 6, 2019, by order filed pursuant to Roseboro v. Garrison, 528 F.2d
309, 310 (4th Cir. 1975), Petitioner was advised of the summary judgment procedure and the
possible consequences if he failed to adequately respond to the motion. (ECF No. 16). On March
28, 2019 Petitioner responded. (ECF No. 21). On April 4, 2019, Respondent replied to Petitioner’s
response. (ECF No. 22). In accordance with 28 U.S.C. § 636(b) and Local Civil Rule
73.02(B)(2)(c) (D.S.C.), the case was referred to the Magistrate Judge.

4:18-cv-03234-JFA

Date Filed 08/15/19

Entry Number 36

Page 2 of 9

The Magistrate Judge assigned to this action1 prepared a thorough Report and
Recommendation (“Report”) and opines that this Court should grant Respondent’s Motion for
Summary Judgment and dismiss the petition because (1) Ground Two is procedurally barred;
(2) Grounds Three and Four are not cognizable federal claims appropriate for review; and
(3) Petitioner cannot succeed on the merits on Grounds One, Five, and Six. (ECF No. 24). The
Report sets forth, in detail, the relevant facts and standards of law on this matter, and this Court
incorporates those facts and standards without a recitation.
The Court is charged with making a de novo determination of those portions of the Report
to which specific objections are made, and the Court may accept, reject, or modify, in whole or in
part, the recommendation of the Magistrate Judge, or recommit the matter to the Magistrate Judge
with instructions. See 28 U.S.C. § 636(b)(1). However, a district court is only required to conduct
a de novo review of the specific portions of the Magistrate Judge’s Report to which an objection
is made. See 28 U.S.C. § 636(b); Fed. R. Civ. P. 72(b); Carniewski v. W. Virginia Bd. ofProb. &
Parole, 974 F.2d 1330 (4th Cir. 1992). In the absence of specific objections to portions of the
Report of the Magistrate, this Court is not required to give an explanation for adopting the
recommendation. See Camby^v. Davis, 718 F.2d 198, 199 (4th Cir. 1983). Thus, the Court must
only review those portions of the Report to which Petitioner has made a specific written objection.
Diamond v. Colonial Life & Acc. Ins. Co., 416 F.3d 310, 316 (4th Cir. 2005).

l

The Magistrate Judge’s review is made in accordance with 28 U.S.C. § 636(b) and Local Civil
Rule 73.02(B)(2)(c) (D.S.C.). The Magistrate Judge makes only a recommendation to this Court.
The recommendation has no presumptive weight, and the responsibility to make a final
determination remains with the Court. Mathews v. Weber, 423 U.S. 261 (1976). The Court is
charged with making a de novo determination of those portions of the Report and
Recommendation to which specific objection is made, and the Court may accept, reject, or
modify, in whole or in part, the recommendation of the Magistrate Judge, or recommit the matter
to the Magistrate Judge with instructions. See 28 U.S.C. § 636(b).

4:18-cv-03234-JFA

Date Filed 08/15/19

Entry Number 36

Page 3 of 9

“An objection is specific if it ‘enables the district judge to focus attention on those issues—
factual and legal—that are at the heart of the parties’ dispute.’” Dunlap v. TM Trucking of the
Carolinas, LLC, No. 0:15-cv-04009-JMC, 2017 WL 6345402, at *5 n.6 (D.S.C. Dec. 12, 2017)
(citing One Parcel of Real Prop. Known as 2121 E. 30th St., 73 F.3d 1057, 1059 (10th Cir. 1996)).
A specific objection to the Magistrate’s Report thus requires more than a reassertion of arguments
from the Complaint or a mere citation to legal authorities. See Workman v. Perry, No. 6:17-cv00765-RBH, 2017 WL 4791150, at *1 (D.S.C. Oct. 23, 2017). A specific objection must “direct
the court to a specific error in the magistrate’s proposed findings and recommendations.” Orpiano
v. Johnson, 687 F.2d 44, 47 (4th Cir. 1982).
“Generally stated, nonspecific objections have the same effect as would a failure to object.”
Staley v. Norton, No. 9:07-0288-PMD, 2007 WL 821181, at *1 (D.S.C. Mar. 2, 2007) (citing
Howard v. Sec’y of Health and Human Servs., 932 F.2d 505, 509 (6th Cir. 1991)). The court
reviews portions “not objected to—including those portions to which only ‘general and
conclusory’ objections have been made—for clear error." Id. (emphasis added) (citing Diamond,
416 F.3d at 315; Camby, 718 F.2d at 200; Orpiano, 687 F.2d at 47).
Petitioner was advised of his right to object to the Report, which was entered on the docket
on May 23, 2019. (ECF No. 24). Petitioner filed objections to the Report (“Objections”) on June
13, 2019. (ECF No. 27). Respondent replied to the Objections on June 14, 2019. (ECF No. 29).
Thereafter, Petitioner filed a response to the Respondent’s Reply on July 1, 2019. (ECF No. 33).
Thus, this matter is ripe for review.
II.

LEGAL STANDARD
Under Rule 56 of the Federal Rules of Civil Procedure, summary judgment is proper when

there is no genuine dispute as to any material fact and the moving party is entitled to judgment as

4:18-CV-03234-JFA

Date Filed 08/15/19

Entry Number 36

Page 4 of 9

a matter of law. Celotex Corp. v. Catrett, All U.S. 317, 322 (1986). A material fact is one that
“might affect the outcome of the suit under the governing law.” Spriggs v. Diamond Auto Glass,
242 F.3d 179, 183 (4th Cir. 2001) (quoting Anderson v. Liberty Lobby, Inc., All U.S. 242, 248
(1986)). A dispute of material fact is “genuine” if sufficient evidence favoring the non-moving
party exists for the trier of fact to return a verdict for that party. Anderson, All U.S. at 248^49.
The moving party bears the initial burden of showing the absence of a genuine dispute of
material fact. Celotex, All U.S. at 323. Once the moving party makes this showing, however, the
opposing party may not rest upon mere allegations or denials, but rather must, by affidavits or
other means permitted by the Rule, set forth specific facts showing that there is a genuine issue for
trial. See Fed. R. Civ. P. 56(e). All inferences must be viewed in a light most favorable to the non­
moving party, but he “cannot create a genuine issue of material fact through mere speculation or
the building of one inference upon another.” Beale v. Hardy, 769 F.2d 213, 214 (4th Cir. 1985).
III.

DISCUSSION

Petitioner’s habeas petition raises the following issues:
Ground One: The petitioner was denied the right to effective assistance of appellate
counsel.
Supporting Facts: The petitioner’s appellate counsel failed to raise and argue the
State’s violation of his discovery request for the alleged robbery victim’s medical
records to refute the State’s “attempted murder charge” that a bullet fired by
petitioner grazed the robbery victim’s head. The petitioner objected to the State’s
violation of his discovery request for appellate review, which his appellate counsel
failed to raise and argue.
Ground Two: The petitioner discovered after his trial that the solicitor used perjured
testimony to obtain his conviction.
Supporting Facts: The solicitor proffered testimony by petitioner’s alleged
codefendant, Kyndell Robinson, who testified against petitioner for a “deal with the
solicitor” which was not disclosed at trial. When asked why he was testifying for
the State, Robinson testified he was testifying to better his life.

4:18-CV-03234-JFA

Date Filed 08/15/19

Entry Number 36

Page 5 of 9

Ground Three: The petitioner was unlawfully deprived of an appellate review of
his petition for writ of certiorari.
Supporting Facts: The Deputy Clerk, Brenda F. Shealy, of the South Carolina
Supreme Court, signed an order denying the petitioner’s writ of certiorari.
Ground Four: The trial court lacked subject matter jurisdiction to convict and
sentence the petitioner.
Supporting Facts: The petitioner’s indictment indicate that his indictments were
returned by the grand jury on October 18, 2012; however, the grand jury did not
convene until October 22, 2012 to return indictments and Spartanburg County.
Thus, as South Carolina law holds that no indictment may be presented outside of
a term of general sessions court, the trial court lacked subject matter jurisdiction to
convict and sentence petitioner.
Ground Five: Petitioner did not knowingly and intelligently waive his right to
assistance of counsel with a full understanding of the elements of his attempted
murder charge and available defense(s).
Ground Six: The petitioner was denied the right to a fast and speedy trial.
First, the Magistrate Judge correctly opines that Ground 2 is procedurally barred and
Petitioner has failed to show cause for his procedural default on this issue. (ECF No. 24 p. 13).
Petitioner attempts to object to this proposed finding; however, he fails to address or even mention
the issue of procedural default. (ECF No. 27 p. 3; ECF No. 33 p. 1). Petitioner’s “objections” and
reply thereto are merely a rehash of his arguments asserted in his initial petition. (Compare ECF
No. 27 p. 3; ECF No. 33 p. 1, with ECF No. 1-1 ps. 25-26). A specific objection to the Magistrate’s
Report thus requires more than a reassertion of arguments from the Complaint or a mere citation
to legal authorities. See Workman v. Perry, No. 6:17-cv-00765-RBH, 2017 WL 4791150, at *1
(D.S.C. Oct. 23, 2017). Thus, Petitioner has failed to make a specific objection with regards to
Ground Two being procedurally barred.
Next, the Magistrate Judge correctly opines that Grounds Three and Four are not
cognizable claims on habeas review. The Magistrate Judge explains that in Ground Three,

4:18-cv-03234-JFA

Date Filed 08/15/19

Entry Number 36

Page 6 of 9

Petitioner argues that he was deprived of appellate review of his writ of certiorari because the order
denying his writ from the State Supreme Court was signed by the Supreme Court’s Deputy Clerk
instead of a judge; however, alleged defects in state PCR proceedings are not cognizable in a
federal habeas action. Wright v. Angelonea 151 F.3d 151 (4th Cir. 1998). As to Ground Four, the
Magistrate Judge opines:
In Ground Four, Petitioner argues that the trial court lacked subject matter
jurisdiction to convict and sentence him because he had not been formally indicted.
Deficiencies in state court indictments “are not ordinarily a basis for federal habeas
corpus relief unless the deficiency makes the trial so egregiously unfair as to
amount to a deprivation of the defendant’s right to due process.” Ashford v.
Edwards. 780 F.2d 405, 407 (4th Cir. 1985). Additionally, claims arising from state
law are not cognizable. See Estelle v. McGuire. 502 U.S. 62, 67-68 (1991).
Jurisdiction is a noncognizable state law issue. See Wright v. Angelone. 151 F.3d
151, 156-158 (4th Cir. 1998).
Again, Petitioner does not make any specific objections. In his attempt to object, Petitioner
does not even address the Magistrate Judge’s proposed finding that Grounds Three and Four
pertain to the state court’s jurisdiction/state procedure, and thus should be dismissed because they
are not cognizable claims on habeas review. Petitioner’s “objections” regarding Ground Three are
in fact the same argument, almost word for word, alleged in his initial habeas petition. (Compare
ECF No. 27 p. 4 & ECF No. 33 p. 1, with ECF No. 1-1 ps. 26-27.) Once again, Petitioner’s
“objections” in regards to Ground Four reassert his arguments from his petition. (Compare ECF
No. 27 ps. 4-5 & ECF No. 33 p. 2, with ECF No. 1-1 ps. 27-28). A specific objection to the
Magistrate’s Report thus requires more than a reassertion of arguments from the Complaint or a
mere citation to legal authorities. See Workman v. Perry, No. 6:17-cv-00765-RBH, 2017 WL
4791150, at *1 (D.S.C. Oct. 23, 2017). Thus, Petitioner’s objections are not specific.

4:18-cv-03234-JFA

Date Filed 08/15/19

Entry Number 36

Page 7 of 9

The Magistrate Judge then correctly opines Petitioner cannot proceed on the merits on
Ground One (ineffective assistance of counsel), Ground Five (knowing waiver of assistance of
counsel), and Ground Six (claim of a speedy trial violation).
In regards to Ground One, the Magistrate Judge opines:
The PCR court’s rejection of the ineffective assistance of appellate counsel ground
for relief did not result in an unreasonable application of Strickland and was not
based upon an unreasonable determination of facts in light of the state court record.
Moreover, Petitioner produced no witnesses or evidence at his PCR proceedings to
support his assertions and to show prejudice. [. . .] Accordingly, Petitioner fails to
show the PCR court’s findings of no error and no prejudice involve an unreasonable
application of Supreme Court precedent.
As to Ground One, Petitioner again reasserts his exact same arguments from his habeas
petition. (CompareECFNo. 27ps. l-2&ECFNo.33p. l,withECFNo. 1-1 ps. 23-24). Petitioner
does not address the Magistrate Judge’s proposed finding that the he failed to show the PCR court’s
unreasonable application of Supreme Court precedent.
As to Ground Five, the Magistrate Judge opines:
The state court’s determination was neither a decision that “was contrary to, or
involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; nor a decision that was
based on an unreasonable determination of the facts in light of the evidence
presented in the state court proceeding.” § 2254(d)(1), (2).
With regards to Ground Five, Petitioner does not address the Magistrate Judge’s proposed
findings. Petitioner’s attempted objections again reassert his same arguments from his petition.
(Compare ECF No. 27 p. 5 & ECF No. 33 p. 2, with ECF No. 1-1 ps. 29-30).
Regarding Ground Six, the Magistrate Judge again opines:
The state court’s determination was neither a decision that “was contrary to, or
involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; nor a decision that was
based on an unreasonable determination of the facts in light of the evidence
presented in the state court proceeding.” § 2254(d)(1), (2).

4:18-cv-03234-JFA

Date Filed 08/15/19

Entry Number 36

Page 8 of 9

Petitioner’s “objections” as to Ground Six, are almost a word for word reassertion from his
arguments in his initial petition, and he does not address the Magistrate Judge’s proposed findings.
(Compare ECF No. 27 p. 6 & ECF No. 33 p. 2, with ECF No. 1-1 ps. 30-32).
Thus, Petitioner has failed to make specific objections as to Grounds One, Five, and Six.
A specific objection to the Magistrate’s Report thus requires more than a reassertion of arguments
from the Complaint or a mere citation to legal authorities. See Workman v. Perry, No. 6:17-cv00765-RBH, 2017 WL 4791150, at *1 (D.S.C. Oct. 23, 2017).
None of Petitioner’s attempted objections address the Magistrate Judge’s proposed
findings or point to any errors in the Report. Petitioner continuously reasserts his same arguments
from his initial petition. Thus, Petitioner has not asserted any specific objections. “Generally
stated, nonspecific objections have the same effect as would a failure to object.” Staley v. Norton,
No. 9:07-0288-PMD, 2007 WL 821181, at *1 (D.S.C. Mar. 2, 2007) (citing Howard v. Sec’y of
Health and Human Servs., 932 F.2d 505, 509 (6th Cir. 1991)).
IV.

CONCLUSION
After carefully reviewing the applicable laws, the record in this case, the Report and

Recommendation, and the objections thereto, this Court finds the Magistrate Judge’s
recommendation fairly and accurately summarizes the facts and applies the correct principles of
law. Accordingly, the Court adopts the Report and Recommendation (ECF No. 24). Thus,
Respondent’s Motion for Summary Judgment is granted (ECF No. 15) and Petitioner’s habeas
petition is dismissed with prejudice (ECF No. 1).

4:18-cv-03234-JFA

Date Filed 08/15/19

Entry Number 36

Page 9 of 9

It is further ordered that a certificate of appealability is denied because Petitioner has failed
to make “a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2).2
IT IS SO ORDERED.

August 15, 2019
Columbia, South Carolina

Joseph F. Anderson, Jr.
United States District Judge

2 A certificate of appealability will not issue absent “a substantial showing of the denial of a
constitutional right.” 28 U.S.C. § 2253(c)(2). A prisoner satisfies this standard by demonstrating
that reasonable jurists would find both that his constitutional claims are debatable and that any
dispositive procedural rulings by the district court are also debatable or wrong. See Miller-El v.
Cockrell, 537 U.S. 322, 336 (2003); Slack v. McDaniel, 529 U.S. 473, 484 (2000); Rose v. Lee,
252 F.3d 676, 683 (4th Cir. 2001). In the instant matter, the Court finds that Petitioner has failed
to make “a substantial showing of the denial of a constitutional right.”

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 1 of 28

UNITED STATES DISTRICT COURT
DISTRICT OF SOUTH CAROLINA
FLORENCE DIVISION
JAVAN FREDRICK MAYS,
Petitioner,
vs.

)
)
)
)
)

C/A No. 4:18-03234-JFA-TER

) REPORT AND RECOMMENDATION
WARDEN SCOTT LEWIS,
Respondent.

)
)
)
)

Petitioner, appearing pro se, filed his petition for a writ of habeas corpus
pursuant to 28 U.S.C. § 22541 on November 30,2018. Respondent filed a motion for
summary judgment on February 5,2019, along with a return and memorandum. (ECF
No. 14 and No. 15). The undersigned issued an order filed February 6,2019, pursuant
to Roseboro v. Garrison. 528 F.2d 309 (4th Cir. 1975), advising Petitioner of the
motion for summary judgment procedure and the possible consequences if he failed
to respond adequately. (ECF No. 13). Petitioner filed a response on March 28,2019,
and Respondent filed a reply on April 4, 2019.

PROCEDURAL HISTORY
In Petitioner’s response to the motion for summary judgment, he concedes to

1 This habeas corpus case was automatically referred to the undersigned United States Magistrate
Judge pursuant to the provisions of 28 U.S.C. § 636(b)(1)(B) and Local Rule 73.02(B)(2)(c),
DSC. Because this is a dispositive motion, this report and recommendation is entered for review
by the district judge.

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 2 of 28

the procedural history as set forth by Respondent in the memorandum. Therefore, the
procedural history as set forth in Respondent’s memorandum will be repeated herein,
in part.
Petitioner is currently incarcerated in the Perry Correctional Institution pursuant
to orders of commitment from the Clerk of Court for Spartanburg County. Petitioner
was indicted in October 2012 by the Spartanburg County Grand Jury for two counts
of attempted murder, armed robbery, and possession of a firearm during the
commission of a violent crime. Petitioner represented himself at trial and J. Roger
Poole, Esquire, acted as standby counsel. Petitioner’s jury trial was held onNovember
18, 2013, before the Honorable Alexander S. Macaulay and a jury. Petitioner was
found guilty as indicted. Judge Macaulay sentenced Petitioner to concurrent terms of
twenty years on each count of attempted murder, twenty years for armed robbery, and
five years for the firearm charge.
Direct Appeal
A timely Notice of Appeal was served on behalf of Petitioner, and an appeal
was perfected with the filing of a Final Anders2 Brief of Appellant. On appeal,
Petitioner was represented by Susan B. Hackett, Esquire, of the Office of Appellate
Defense. In his Anders Brief, Petitioner raised the following issue:

2 Anders v. California. 386 U.S. 738 (1967).
2

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 3 of 28

In violation of Appellant's right to a jury trial pursuant to
the Sixth and Fourteenth Amendments to the United States
Constitution and Article I, section 14 of the South Carolina
Constitution, did the trial judge err in failing to instruct the
jury that in order to convict Appellant of attempted murder
the jury must find that Appellant acted with a specific intent
to kill?
(Attachment 1, at 267 of 365). On April 8, 2015, the South Carolina Court of
Appeals dismissed the appeal affirming Petitioner’s convictions and sentences in
an unpublished decision. The Remittitur was returned on April 28, 2015.
PCR
Petitioner filed his application for post-conviction relief (PCR) on April 28,
2015. In the PCR application, Petitioner argued as follows:
1.

Ineffective Assistance of Appellate Counsel, in that:

a.

Appellate Counsel failed to argue on appeal that Appellant was
deprived by the State of his right to a speedy trial as required by
the Sixth and Fourteenth Amendments to the United States
Constitution; and

b.

Appellate counsel failed to raise and argue the State’s Brady
violation.

2. Due Process violation, in that:
a.

Court failed to adequately explain dangers and disadvantages of
self-representation as required by Sixth and Fourteenth
Amendments to the U. S. Constitution.

3.
4.

The trial court lacked subject matter jurisdiction.
The applicant discovered after his trial that the solicitor used
3

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 4 of 28

perjured testimony.
An evidentiary hearing was convened November 9,2016, before the Honorable
Frank R. Addy. Petitioner proceeded on the allegations of ineffective assistance of
appellate counsel for failure to argue preserved issues on appeal, and violation of due
process in that Petitioner was not adequately advised ofthe dangers and disadvantages
of proceeding pro se. Rodney Richey, Esquire, represented Petitioner at the hearing.
Assistant Attorney General Alicia Olive represented the State. On March 31, 2017,
Judge Addy entered an order denying and dismissing with prejudice the application
for PCR. (ECF No. 14-1 at 331-339 of 365.)

PCR Appeal
Petitioner filed a notice of appeal and was represented by Wanda H. Carter with
the South Carolina Office of Appellate Defense. Ms. Carter filed a petition for writ
of certiorari in the Supreme Court of South Carolina on June 21, 2018, pursuant to
Johnson v. State.3 The following issue was raised:
The PCR judge erred in dismissing petitioner’s PCR claim
under 2015-CP-42-01784 that his trial court convictions
and sentences were obtained unconstitutionally in violation
of his Sixth Amendment right to counsel, which he did not
waive properly prior to trial, because he was not warned

3 Johnson v. State. 294 S.C. 310, 364 S.E.2d 201 (1988),
4

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 5 of 28

sufficiently of the details of the dangers and disadvantages
associated with self-representation.
(ECFNo. 14-14).
Appellate counsel also moved to be relieved as counsel. On July 17, 2018,
Petitioner filed his pro se response to the Johnson petition. (Attachment 5). In that
response, Petitioner presented the following issue:
The PCR judge erred in denying the petitioner’s claim that
he was denied the right to effective assistance of appellate
counsel by counsel’s failure to raise his preserved issue of
the State’s violation of his discovery request for the robbery
victims’ medical records to disprove the state’s attempted
murder charges against him in his PCR action 2015-CP-4201784.
(ECF No. 14-5).
The Supreme Court of South Carolina issued an order on October 10, 2018,
denying the petition for writ of certiorari. (ECF No. 14-6). The remittitur was issued
on October 26, 2018, and filed on October 29, 2018.

HABEAS ALLEGATIONS
In the petition, Petitioner raised the following issues:
Ground One:

The petitioner was denied the right to
effective assistance of appellate counsel.

Supporting Facts:

The petitioner’s appellate counsel failed to
raise and argue the State’s violation of his
5

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 6 of 28

discovery request for the alleged robbery
victim’s medical records to refute the State’s
“attempted murder charge” that a bullet fired
by petitioner grazed the robbery victim’s
head. The petitioner objected to the State’s
violation of his discovery request for appellate
review, which his appellate counsel failed to
raise and argue.
Ground Two:

The petitioner discovered after his trial that
the solicitor used perjured testimony to obtain
his conviction.

Supporting Facts:

The solicitor proffered testimony by
petitioner’s alleged codefendant, Kyndell
Robinson, who testified against petitioner for
a “deal with the solicitor” which was not
disclosed at trial. Tr. p. 43, L. 5-8. When
asked why he was testifying for the State,
Robinson testified he was testifying to better
his life.

Ground Three:

The petitioner was unlawfully deprived of an
appellate review of his petition for writ of
certiorari.

Supporting Facts:

The Deputy Clerk, Brenda F. Shealy, of the
South Carolina Supreme Court, signed an
order denying the petitioner’s writ of
certiorari. Exhibit A, supra.

Ground Four:

The trial court lacked subject matter
jurisdiction to convict and sentence the
petitioner.

Supporting Facts:

The petitioner’s indictment indicate that his
indictments were returned by the grand jury
on October 18,2012; however, the grand jury
6

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 7 of 28

did not convene until October 22, 2012 to
return indictments and Spartanburg County.
Thus, as South Carolina law holds that no
indictment may be presented outside of a term
of general sessions court, the trial court lacked
subject matter jurisdiction to convict and
sentence petitioner.
Ground Five:

Petitioner did not knowingly and intelligently
waive his right to assistance of counsel with a
full understanding of the elements of his
attempted murder charge and available
defense(s).

Ground Six:

The petitioner was denied the right to a fast
and speedy trial.

(ECF No. 1).
STANDARD FOR SUMMARY JUDGMENT
The federal court is charged with liberally construing the complaints filed by
pro se litigants, to allow them to fully develop potentially meritorious cases. See Cruz
v. Beto. 405 U.S. 319 (1972); Haines v. Kerner. 404 U.S. 519 (1972). The court’s
function, however, is not to decide issues of fact, but to decide whether there is an
issue of fact to be tried. The requirement of liberal construction does not mean that
the court can ignore a clear failure in the pleadings to allege facts which set forth a
federal claim, Weller v. Dep’t of Social Servs.. 901 F.2d 387 (4th Cir. 1990), nor can
the court assume the existence of a genuine issue of material fact where none exists.
7

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 8 of 28

If none can be shown, the motion should be granted. Fed. R. Civ. P. 56(c).
The moving party bears the burden of showing that summary judgment is
proper. Summary judgment is proper if there is no genuine dispute of material fact
and the moving party is entitled to judgment as a matter of law. Fed.R.Civ.P. 56(a);
Celotex Corp. v. Catrett 477 U.S. 317, 322 (1986). Summary judgment is proper if
the non-moving party fails to establish an essential element of any cause of action
upon which the non-moving party has the burden of proof. Celotex. 477 U.S. 317.
Once the moving party has brought into question whether there is a genuine dispute
for trial on a material element of the non-moving party’s claims, the non-moving party
bears the burden of coming forward with specific facts which show a genuine dispute
for trial. Fed.R.Civ.P. 56(e): Matsushita Electrical Industrial Co.. Ltd, v. Zenith Radio
Corp,. 475 U.S. 574 (1986). The non-moving party must come forward with enough
evidence, beyond a mere scintilla, upon which the fact finder could reasonably find
for it. Anderson v. Liberty Lobby. Inc.. 477 U.S. 242.247-48 (1986). The facts and
inferences to be drawn therefrom must be viewed in the light most favorable to the
non-moving party. Shealv v. Winston. 929 F.2d 1009,1011 (4th Cir. 1991). However,
the non-moving party may not rely on beliefs, conjecture, speculation, or conclusory
allegations to defeat a motion for summary judgment. Barbery. Hosp. Corp. of Am..
977 F.2d 874-75 (4th Cir. 1992). The evidence relied on must meet “the substantive
8

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 9 of 28

evidentiary standard of proof that would apply at a trial on the merits.” Mitchell v.
Data General Coro.. 12 F.3d 1310, 1316 (4th Cir. 1993).
To show that a genuine dispute of material fact exists, a party may not rest upon
the mere allegations or denials of his pleadings. See Celotex. 477 U.S. at 324 (Rule
56(e) permits a proper summary judgment motion to be opposed by any of the kinds
of evidentiary materials listed in Rule 56(c), except the mere pleadings themselves).
Rather, the party must present evidence supporting his or her position through
“depositions, answers to interrogatories, and admissions on file, together with . . .
affidavits, if any.” Id. at 322; see also Cray Communications. Inc, v. Novatel
Computer Systems. Inc.. 33 F.3d 390 (4th Cir. 1994); Orsi v. Kickwood. 999 F.2d 86
(4th Cir. 1993); Local Rules 7.04, 7.05, D.S.C.
STANDARD OF REVIEW
In addition to the standard that the court must employ in considering motions
for summary judgment, the court must also consider the petition under the
requirements set forth in 28 U.S.C. § 2254. Under § 2254(d),
An application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a State court
shall not be granted with respect to any claim that was
adjudicated on the merits in the State court proceedings
unless the adjudication of the claim(1) resulted in a decision that was contrary to, or involved
an unreasonable application of, clearly established Federal
law, as determined by the Supreme Court of the United
9

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 10 of 28

States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the State court
proceeding.
Thus, a writ may be granted if a state court “identifies the correct principle from [the
Supreme] Court’s decisions but unreasonably applies that principle of law” to the facts
of the case. Humphries v. Ozmint. 397 F.3d206,216 (4th Cir. 2005) (citing Williams
v. Taylor. 529 U.S. 362, 413 (2000)). However, “an ‘unreasonable application of
federal law is different from an incorrect application of federal law,’ because an
incorrect application of federal law is not, in all instances, objectively unreasonable.”
Id. “Thus, to grant [a] habeas petition, [the court] must conclude that the state court’s
adjudication of his claims was not only incorrect, but that it was objectively
unreasonable.” McHone v. Polk. 392 F.3d 691, 719 (4th Cir. 2004). Further, factual
findings “made by a State court shall be presumed to be correct,” and a Petitioner has
“the burden of rebutting the presumption of correctness by clear and convincing
evidence.” 28 U.S.C. § 2254(e)(1).
PROCEDURAL BAR
The United States Supreme Court has clearly stated that the procedural bypass
of a constitutional claim in earlier state proceedings forecloses consideration by the
federal courts, Smith v. Murray. 477 U.S. 527, 533 (1986). Bypass can occur at any
level of the state proceedings, if a state has procedural rules which bar its courts from
10

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 11 of 28

considering claims not raised in a timely fashion. The two routes of appeal in South
Carolina are described above, (i.e., direct appeal, appeal from PCR denial) and the
South Carolina Supreme Court will refuse to consider claims raised in a second appeal
which could have been raised at an earlier time. Further, if a prisoner has failed to file
a direct appeal or at PCR and the deadlines for filing have passed, he is barred from
proceeding in state court.
If the state courts have applied a procedural bar to a claim because of an earlier
default in the state courts, the federal court honors that bar. State procedural rules
promote
. . . not only the accuracy and efficiency of judicial decisions, but also
the finality of those decisions, by forcing the defendant to litigate all of
his claims together, as quickly after trial as the docket will allow, and
while the attention of the appellate court is focused on his case.
Reed v. Ross. 468 U.S. 1,10-11 (1984).
Although the federal courts have the power to consider claims despite a state
procedural bar,
. . . the exercise of that power ordinarily is inappropriate unless the
defendant succeeds in showing both “cause” for noncompliance with the
state rule and “actual prejudice” resulting from the alleged constitutional
violation.
Smith v. Murray. 477 U.S. at 533 ('quoting Wainwright v. Svkes. 433 U.S. at 84
U977)1. See also Engle v. Isaac. 456 U.S. 107, 135 (1982).
11

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 12 of 28

Stated simply, if a federal habeas Petitioner can show (1) cause for his failure
to raise the claim in the state courts, and (2) actual prejudice resulting from the failure,
a procedural bar can be ignored and the federal court may consider the claim. Where
a Petitioner has failed to comply with state procedural requirements and cannot make
the required showing(s) of cause and prejudice, the federal courts generally decline
to hear the claim. See Murray v. Carrier. 477 U.S. 478, 496 (1986).
Even if a Petitioner cannot demonstrate cause for failure to raise a claim, he can
still overcome procedural default by showing a miscarriage of justice. In order to
demonstrate a miscarriage of justice, a petitioner must show he is actually innocent.
See Carrier. 477 U.S. at 496 (holding a fundamental miscarriage of justice occurs only
in extraordinary cases, “where a constitutional violation has probably resulted in the
conviction of someone who is actually innocent”). Actual innocence is defined as
factual innocence, not legal innocence. Bouslev v. United States. 523 U.S. 614, 623
(1998). To meet this actual innocence standard, the petitioner’s case must be truly
extraordinary. Carrier. 477 U.S. at 496.

12

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 13 of 28

ANALYSIS4
Procedurallv Barred Claim
Ground Two
As an initial matter, Respondent contends that Petitioner’s claim in Ground
Two is procedurally defaulted in state court and barred from federal habeas review.
Specifically, Respondent argues that Petitioner’s claim of prosecutorial misconduct
was presented in Petitioner’s PCR application, but was not ruled upon by the PCR
court. Petitioner did not file a Rule 59(e) motion. Respondent asserts that Petitioner
cannot show cause and prejudice for his failure to preserve the claim in state court.
In his response to the motion for summary judgment, Petitioner does not address this
argument but basically repeated the same grounds he raised in his petition. This issue
was not addressed in the PCR court order and was not raised or addressed in the PCR___
appeal. Therefore, this issue was procedurally defaulted in state court. Thus, it is
procedurally barred from federal habeas review absent a showing of cause and actual
prejudice, or by showing actual innocense. Martinez v. Rvan. 132 S. Ct. 1309 (2012);
Wainwright v. Sykes. 433 U.S. 72, 87, 90-91 (1977). Because Petitioner has failed
to show cause for his procedural default on this issue, his claim is procedurally barred.

4 Respondent submits that Petitioner is not in violation of the AEDPA one-year of statute of
limitations. (ECF No. 12 at 10, fn. 3).
13

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 14 of 28

Rodriguez v. Young. 906 F.2d 1153,1159 (7th Cir. 1990), cert, denied, 498 U.S. 1035
(1991) (“Neither cause without prejudice nor prejudice without cause gets a defaulted
claim into Federal Court.”); Turner v. Jabe. 58 F.3d 924 (4th Cir. 1995) (Absent a
showing of “cause”, the court is not required to consider “actual prejudice.”).
Petitioner has not presented any arguments to show cause for his procedural default
of this claim. Therefore, it is recommended that Ground Two be dismissed as
procedurally barred.

Grounds Three and Four
Respondent argues that Petitioner’s Grounds Three and Four are not cognizable
federal claims appropriate for review so that the procedural analysis does not apply.
— In Ground Three, Petitioner argues that he was deprived of appellate review of
his writ of certiorari because the order denying his writ from the State Supreme Court
was signed by the Supreme Court’s Deputy Clerk instead of a judge. Petitioner’s
argument pertains to a procedural decision of the State Supreme Court to authorize its
Deputy Clerk to sign orders of dismissal which is not cognizable for federal habeas
review. Further, as this pertains to the appeal from his PCR, it should be dismissed.
Alleged defects in state PCR proceedings are not cognizable in a federal habeas
action. Wright v. Angelone. 151 F.3d 151 (4th Cir. 1998); Bryant v. Maryland. 848
14

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 15 of 28

F.2d 492,493 (4th Cir.1988) (holding that errors and irregularities in connection with
state PCR proceedings are not cognizable on federal habeas review).
In Ground Four, Petitioner argues that the trial court lacked subject matter
jurisdiction to convict and sentence him because he had not been formally indicted.
Deficiencies in state court indictments “are not ordinarily a basis for federal habeas
corpus relief unless the deficiency makes the trial so egregiously unfair as to amount
to a deprivation of the defendant’s right to due process.” Ashford v. Edwards. 780
F.2d 405, 407 (4th Cir. 1985). Additionally, claims arising from state law are not
cognizable. See Estelle v. McGuire. 502 U.S. 62,67-68 (1991). Jurisdiction is anoncognizable state law issue. See Wright v. Angelone. 151 F.3d 151, 156-158 (4th
Cir. 1998). Accordingly, as Grounds Three and Four pertain to the state court’s
jurisdiction/state procedure, these issues should be dismissed. Therefore, it is
recommended that Grounds Three and Four be dismissed.

Ground One
In Ground One, Petitioner alleges ineffective assistance of appellate counsel for
failing to raise his preserved claim of a Brady violation instead of an unpreserved
issue regarding the court’s jury instruction on intent. Petitioner argues that he was
charged with attempted murder, and one of the victims testified in addition to being
15

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 16 of 28

shot in his toe and leg, a bullet grazed his head. During deliberations, the jury sent a
note to the trial judge asking whether or not the bullet grazed the victim’s head.
Petitioner argues that there was prosecutorial misconduct because the solicitor should
have acquired the medical records of the victim and given them to Petitioner to assist
in his defense. Respondent filed a response arguing that the Petitioner has not shown
the decision of the PCR court constituted an unreasonable determination of the facts
in light of the evidence presented, nor was the decision contrary to clearly established
federal law. Therefore, Respondent asserts Petitioner is not entitled to relief on this
ground and summary judgment should be granted.
Claims of ineffective assistance of appellate counsel must be analyzed under
the standard set forth in Strickland v. Washington. The Sixth Amendment to the
United States Constitution guarantees a defendant the right to effective assistance of _
counsel in a criminal prosecution. McMann v. Richardson. 397 U.S. 759, 771 n.14
(1970). In the case of Strickland v. Washington. 466 U.S. 668 (1984), the United
States Supreme Court set forth two factors that must be considered in evaluating
claims for ineffective assistance of counsel. A petitioner must first show that his
counsel committed error. If an error can be shown, the court must consider whether
the commission of an error resulted in prejudice to the defendant.
To meet the first requirement, “[t]he defendant must show that counsel’s
16

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 17 of 28

representation fell below an objective standard of reasonableness.” Strickland, at 688.
“The proper measure of attorney performance remains simply reasonableness under
prevailing professional norms.” Turner v. Bass. 753 F.2d 342, 348 (4th Cir. 1985)
(quoting Strickland, reversed on other grounds. 476 U.S. 28 (1986)). The Court
further held at page 695 that:
[A] court deciding an actual ineffectiveness claim must
judge the reasonableness of counsel's challenged conduct
on the facts of the particular case, viewed as of the time of
counsel's conduct ... the court must then determine
whether, in light of all the circumstances, the identified acts
or omissions were outside the wide range of professionally
competent assistance. (Emphasis added.)
Id.; Williams v. Tavlor. 529 U.S. 362, 120 S.Ct. 1495 (2000)(confirming the
Strickland analysis). In meeting the second prong of the inquiry, a complaining
-defendant must.show that he was prejudiced before being entitled to reversal.
Strickland requires that:
[T]he defendant must show that there is a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different. A
reasonable probability is a probability sufficient to
undermine confidence in the outcome.
Strickland, at 694.
This issue was raised and ruled upon by the PCR court and raised in the PCR
appeal. In the order of dismissal, the PCR court discussed the standard for analyzing
17

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 18 of 28

claims of ineffective assistance of appellate counsel under Strickland and concluded
as follows:
Precisely this procedure was followed here. Appellate Counsel testified
she filed an Anders brief in this case because based upon her review of
the entire record, she could discern no preserved, meritorious issues and
she saw no basis for arguing that Applicant was not adequately advised
of the dangers and disadvantages of self-representation. As Counsel
testified, she argued the only potentially meritorious issue she could
ascertain, but that the issue was not preserved due to Applicant’s failure
to preserve the issue at trial. The Court of Appeals dismissed the appeal
pursuant to Anders. State v. Mays. 2015-UP-0179 (S.C. Ct. App. Filed
April 8,2015). Had the Court discovered any meritorious issues upon its
independent review of the record, it would not have dismissed the appeal
In considering the record, the testimony and arguments presented at the
evidentiary hearing, and this Court finds Applicant has shown neither
deficiency nor prejudice with respect to this allegation. Appellate
Counsel followed the procedure outlined in Anders and gave her basis
for doing so and for raising the particular issue she addressed therein.
_ Given that Applicant represented himself and clearly did so freely and
voluntarily after appearing before three different judges on three separate
occasions who inquired as to his understanding of the dangers and
disadvantages of self-representation, Appellate Counsel’s choice to file
an Anders brief was objectively reasonable. Furthermore, because the
Court of Appeals was required to conduct its own independent review of
the record and nevertheless chose to dismiss the appeal, Applicant has
failed to demonstrate the outcome of the appeal would have been
different but for the alleged error of counsel. Accordingly, this Court
finds Applicant failed to satisfy his burden of proving his allegations,
and this application for post-conviction relief is therefore denied and
dismissed with prejudice.
The PCR court found that Petitioner failed to meet the first and second prongs
of Strickland. A presumption of correctness attaches to state court factual findings.
18

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 19 of 28

28 U.S.C. §2244(e)(l). Evans v. Smith. 220 F.3d 306 (4th Cir. 2000). The state PCR
court’s findings of fact are not only entitled to the presumption of correctness, 28
U.S.C. § 2254(e)(1), but also are supported by the record. The PCR court found no
error on the part of appellate counsel. It found appellate counsel followed the Anders
procedure and gave her basis for raising the issue she addressed in the Anders brief.
By filing an Anders brief, the Court of Appeals was required to conduct its own
independent review of the record to ensure the merits of the appeal were not
overlooked. After conducting an independent review of the record, the Court of
Appeals found no merit to the appeal in this case. The PCR court found that Appellate
Counsel’s choice to file the Anders brief was objectively reasonable.
The PCR court’s rejection of the ineffective assistance of appellate counsel
__ ground for relief did not result in an unreasonable application of Strickland and was-----not based upon an unreasonable determination of facts in light of the state court
record. Moreover, Petitioner produced no witnesses or evidence at his PCR
proceedings to support his assertions and to show prejudice. Bassette v. Thompson.
915 F.2d at 939, 941; cf. Bannister v. State. 509 S.E.2d at 809; Clark v. State. 434
S.E.2d at 267-268.
Accordingly, Petitioner fails to show the PCR court’s findings of no error and
no prejudice involve an unreasonable application of Supreme Court precedent. It is
19

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 20 of 28

recommended that Respondent’s motion for summary judgment be granted with
respect to Petitioner’s Ground One.

Ground Five
In Ground Five, Petitioner argues that he did not knowingly and intelligently
waive his right to assistance of counsel. Specifically, Petitioner asserts he did not
waive his right to assistance of counsel with a full understanding of the elements of
his attempted murder charge and the available defenses.
Respondent filed a response in opposition asserting that the PCR court made
a reasonable determination of the facts and its holding was not contrary to clearly
established federal law. Additionally, Respondent argues that Petitioner was informed
of he disadvantages of self-representation and advised to obtain counsel on multiple
occasions before three different judges. However, Petitioner still elected to proceed
pro se. Respondent argues that at the time Petitioner waived his right to counsel,
Petitioner understood the legal proceedings, was aware of the nature of the charges
against him, and said he understood the penalties he faced if convicted so that his
election to proceed pro se was knowing, intelligent, and voluntary.
“The Sixth and Fourteenth Amendments of our Constitution guarantee that a
person brought to trial in any state or federal court must be afforded the right to the
20

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 21 of 28

assistance of counsel before he can be validly convicted and punished by
imprisonment.” Faretta v. California. 422 U.S. 806, 807, 95 S.Ct. 2525, 45 L.Ed.2d
562 (1975). “[CJourts must take care not to force counsel upon a defendant, because
in addition to the right to the assistance of counsel, the Sixth Amendment implicitly
provides an affirmative right to self-representation.” United States v. Singleton. 107
F.3d 1091,1095-96 (4th Cir.1997) (citing Faretta. 422 U.S. at 806). A defendant may
waive his right to counsel; however, a waiver of counsel “must not only be voluntary,
but must also constitute a knowing and intelligent relinquishment or abandonment of
a known right or privilege, a matter which depends in each case ‘upon the particular
facts and circumstances surrounding that case, including the background, experience,
and conduct of the accused.

Edwards v. Arizona. 451 U.S. 477, 482, 101 S.Ct.

1880, 68 L.Ed.2d 378 (1981) (citation omitted). Although no “precise procedure or
litany for this evaluation” is required, the court must consider the record as a whole,
including “the defendant's background capabilities and understanding of the dangers
and disadvantages of self-representation.” Singleton. 107 F.3d at 1097-98. “The law
ordinarily considers a waiver knowing, intelligent, and sufficiently aware if the
defendant fully understands the nature of the right and how it would likely apply in
general in the circumstances-even though the defendant may not know the specific
detailed consequences of invoking it.” Iowa v. Tovar. 541 U.S. 77, 124 S.Ct. 1379,
21

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 22 of 28

158 L.Ed.2d 209 (2004)(citing United States v. Ruiz. 536 U.S. 622, 629, 122 S.Ct.
2450, 153 L.Ed.2d 586 (2002)).
In denying relief on this claim, the PCR court concluded as follows:
Here, Applicant appeared before three different judges on
three separate occasions prior to trial, and, each time,
Applicant reiterated his desire to relieve counsel- and
represent himself. (Tr. at 1-43). Applicant first appeared
before Judge Cole on June 21, 2013. (Tr. at 1-13). Judge
Cole questioned him about his education, whether he had
faced criminal charges before, whether he had been
represented by an attorney before, whether he had been to
trial before, whether he understood the rules of court and
rules of evidence, and what kind of experience or education
he had concerning legal matters. (Tr. at 4-7). Judge Cole
also asked Applicant if he thought he was capable of
representing himself, (Tr. at 8:5-10), if he wished to
represent himself if he could not afford to retain a different
attorney, (Tr. at 8:11-9:6), whether he understood the
"advantages and disadvantages and the pitfalls of
attempting to represent" himself, (Tr. at 9:7-10),-and
whether he understood that he "assumed the risk of
deficient representation" by choosing to represent himself.
(Tr. at 9:14-17). Applicant acknowledged that he
understood that if he chose to represent himself, he would
have to follow the same rules that a lawyer would follow in
court and that if he did not understand what to do, he would
be at a distinct disadvantage. (Tr. at 10:12-20). Applicant
confirmed that he was sure he wished to represent himself;
however, he then stated that he would be amenable to
having a different attorney from the public defender's office
as long as it was not his current attorney. (Tr. at 10-1 1), As
a result, Judge Cole stated he would consult with the Chief
Public Defender to determine whether another public
defender could be appointed. (Tr. at 13).
22

4:18-cv-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 23 of 28

Thereafter, on August 9, 2013, Applicant appeared before
the Honorable Brian M. Gibbons to ask that his second
appointed attorney be relieved. (Tr. at 15-19). Judge
Gibbons again questioned Applicant about, whether he
understood the perils of representing himself and whether
he understood he would be held to the same standards as an
actual attorney and that he would have to know all of the
rules of procedure, rules of evidence, and courtroom
decorum. (Tr. at 18-21). Applicant acknowledged that he
understood by representing himself he could severely
impact his case. (Tr. at 19).
Lastly, on the third occasion, which was just prior to the
start of trial, Judge Macaulay questioned Applicant and
made a finding that Applicant "knowingly and intelligently
and freely and voluntarily waived his right to counsel." (Tr.
at 42:21-43:3).
This Court finds the record clearly reflects that the trial
judge ensured that Applicant made a knowing choice to
represent himself with "eyes open" after being
appropriately advised of the dangers and disadvantages of
self-representation. Accordingly, Applicant has failed to
present any evidence in support of this allegation and it is
therefore denied and dismissed.
(ECFNo. 14-1 at 334-335 of 365).
As argued by the Respondent, a review of the record shows the state court was
not unreasonable in denying the petitioner relief under 2254(d)( 1) since the PCR court
found, as a factual matter, that the petitioner's waiver was made by a knowing choice
with “eyes open” after being advised of the dangers and disadvantages of self­
representation. The PCR court cited the three occasions that Petitioner went before
23

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 24 of 28

three different judges stating that he wanted to represent himself. He was appointed
a second attorney which he also asked to be relieved. The three different judges
questioned Petitioner on his understanding of the waiver and self representation.
Additionally, the PCR court found that Petitioner failed to present any evidence in
support of his allegation and the record reflects that he “knowingly and voluntarily
waived his right to counsel after being advised by several judges of the perils of selfrepresentation.” (ECF No. 14-1 at 334 of 365). Further, a review of the record from
the motion hearing to relieve counsel reveals the an attorney with the public defenders
‘ office was put on standby by the judge when relieved as second counsel. (ECF No.
14-9 at 25 and 35 of 310). The South Carolina Court of Appeals upon an Anders
review did not find any meritorious issues including no error on the part of the trial
court finding that Petitioner knowingly waived his right to counsel and was informed
of the dangers of self-representation by the trial judge. A presumption of correctness
attaches to state court factual findings. 28 U.S.C. §2244(e)(l); Evans v. Smith. 220
F.3d 306 (4th Cir. 2000). The State court’s findings of fact are not only entitled to the
presumption of correctness, 28 U.S.C. § 2254(e)(1), but also are supported by the
record. The state court’s determination was neither a decision that “was contrary to,
or involved an unreasonable application of, clearly established Federal law, as
determined by the Supreme Court of the United States; nor a decision that was based
24

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 25 of 28

on an unreasonable determination of the facts in light of the evidence presented in the
state court proceeding.” § 2254(d)(1), (2). Accordingly, it is recommended that
Respondent’s motion for summary judgment be granted with regard to Ground Five.

Ground Six
In Ground Six, Petitioner argues that he was denied the right to a speedy trial.
Petitioner states that the fourteen-month delay between his arrest and the trial resulted
from the solicitor’s efforts to convince Petitioner’s co-defendant to testify against
him.
In Barker v. Wingo. 407 U.S. 514, 530-32, 92 S.Ct. 2182, 33 L.Ed.2d 101
(1972), the Supreme Court adopted a four-part balancing test to evaluate speedy trial
violation claims :_(l)_the length of the delay; (2) the reason forthe delay;_(3) whether.
the defendant timely asserted the right to a speedy trial; and (4) whether the defendant
has suffered prejudice as a result of the delay. Under this test, the petitioner must show
“that on balance, the four separate factors weigh in his favor.” United States v.
Thomas. 55 F.3d 144,148 (4th Cir. 1995). No one factor is determinative and all four
factors must be considered together. Barker. 407 U.S. at 533. Additionally, the first
factor (length of delay) acts as a triggering mechanism, i.e., if the delay is within
normal limits, there is no need to consider the remaining factors. The length-of-delay
25

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 26 of 28

factor serves two functions in the speedy trial analysis. First, it operates as a
preliminary inquiry to aid the court in determining whether “the interval between
accusation and trial has crossed the threshold dividing ordinary from ‘presumptively
prejudicial’ delay.” Doggett v. United States. 505 U.S. 647, 651-52 (1992) (quoting
Barker, 407 U.S. at 530). Once this hurdle is surpassed, the length of delay is balanced
as one of the four factors in the remainder of the speedy trial analysis. See id. at 652.
As noted by the Supreme Court, “as the term is used in this threshold context,
‘presumptive prejudice’ does not necessarily indicate a statistical probability of
prejudice; it simply marks the point at which courts deem the delay unreasonable
enough to trigger the Barker enquiry.” Doggett. 505 U.S. at 652 n.l.
Respondent asserts that the record has not been fully developed as to the length
and reason for the delay, Petitioner’s assertion of his right, and prejudice. However, _ ..
Respondent contends that at the August 9, 2013, hearing on Petitioner’s second
motion to relieve counsel, the solicitor informed the court that efforts were being
made to call the case for trial but Petitioner’s co-defendant had a conflict of interest
with the public defenders’ office and had to be appointed a new attorney. (ECF No.
14-9 at 23-24 of 310). The solicitor stated that he tried to call the case that week for
trial, but Petitioner fired his public defender so that the case was set for a later docket
but again had to be removed because Petitioner moved to relieve his replacement
26

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 27 of 28

counsel and proceed pro se. At the September 30, 2013, motion hearing for
Petitioner’s motion for speedy trial, Petitioner said he had been detained for fourteenmonths without trial, and the solicitor informed the court the case was set for trial on
the next upcoming docket, the week of October 7. (ECF No. 14-9, at 32 of 310).The
judge informed Petitioner that if his case was not brought to trial the week of October
7, he could petition for a modification of his bond. (ECF No. 14 at 34 of 310).
Based on the record, petitioner did file a motion asserting his right to a speedy
trial. As pointed out during the hearings on Petitioner’s motions to relieve counsel and
for speedy trial, some of the delay was contributed to the filings of motions by
Petitioner having counsel relieved on two different occasions.5 Also, there was a
delay due to the co-defendant’s conflict with the public defender’s office and new
counsel had to be appointed for the co-defendant. Based on the motion hearings, the
Solicitor indicated that he was attempting to schedule the trial as quickly as possible
but unforeseen circumstances were causing delay. As the Respondent asserted,
Petitioner has made no showing of how the alleged delay prejudiced him and did not
present any witnesses at trial or at the PCR hearing to testify as to any harm.

5 Petitioner was indicted during the October 2012 by the Spartanburg County Grand Jury. His
first hearing on his motion to relieve counsel was held June 21, 2013. His second hearing on his
motion to relieve counsel was held on August 9, 2013. Additionally, the trial date had to be
postponed to appoint the co-defendant new counsel due to a conflict. (ECF No. 14-9 ar 23 of
310). Petitioner ’ s trial began November 18,2013.
27

4:18-CV-03234-JFA

Date Filed 05/23/19

Entry Number 24

Page 28 of 28

Therefore, Petitioner has failed to show that the Anders review by the South Carolina
Court of Appeals finding of no meritorious issues was unreasonable. The state court’s
determination was neither a decision that

“was contrary to, or involved an

unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States; nor a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the state court
proceeding.” § 2254(d)(1), (2). Accordingly, it is recommended that Respondent’s
motion for summary judgment be granted with regard to Ground Six.

CONCLUSION
Based on the foregoing, it is RECOMMENDED that Respondent’s motion for
summary judgment (ECF No. 15) be GRANTED in its ENTIRETY, and the petition ... _
be dismissed without an evidentiary hearing and any outstanding motions be deemed
moot.
Respectfully submitted,

s/Thomas E. Rogers. Ill
Thomas E. Rogers, III
United States Magistrate Judge

May 23,2019
Florence, South Carolina

The parties’ attention is directed to the important notice on the next page.
28

/

I

33234-JFA-TER

Date Filed 12/17/18

Entry Number 10-1

Page 17 of 52

■i

!

//

<S
t

S>upccni£ Cmivt ot ^oxUfy Catolitis
Javan. Frederick Mays, Petitioner,
v.
State of South Carolina, Respondent.
Appellate Case No. 2017-000891

!

T

ORDER
J

Based on the vote of the Coart. after eare&ll considerate of*4 s ctiolw

request to withdraw is granted.
FOR THE COURT

BY

nL,tJu^
CLERK
4

v

Columbia, South Carolina

*1.

:.

October 10,2018
cc:
s\
<

Wanda H. Carter, Esquire
Jordan Adraine Cox, Esquire
Javan Fredrick Mays, 250287

i

j

\

;

